No. ____________
In the

Supreme Court of the United States
MICHAEL DAVID OMONDI, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Gia Kim, hereby certify that on January 28, 2021, a copy of
petitioner’s Motion for Leave to Proceed in Forma Pauperis and Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
were mailed postage prepaid, to the Solicitor General of the United States,
Department of Justice, Room 5614, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001, counsel for the Respondent.
In addition, a copy of petitioner’s Motion for Leave to Proceed in
Forma Pauperis and Petition for Writ of Certiorari to the United States

Court of Appeals for the Ninth Circuit was emailed to the Solicitor General at
SupremeCtBriefs@usdoj.gov.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender
DATED: January 28, 2021

By:_________________________
GIA KIM*
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record

